TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2007 Statutory Review
                        of Disclosure of Collection Activity
                           With Respect to Joint Returns



                                           July 12, 2007

                              Reference Number: 2007-40-119




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 12, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2007 Statutory Review of Disclosure
                             of Collection Activity With Respect to Joint Returns
                             (Audit # 200740007)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is in compliance with Internal Revenue Code Section (I.R.C. §) 6103(e)(8) related to the
 disclosure of collection activities to joint filers. The Treasury Inspector General for Tax
 Administration is required under I.R.C. § 7803(d)(1)(B) to evaluate annually the IRS’
 compliance with the joint filer provisions of the law.

 Impact on the Taxpayer
 I.R.C. § 6103(e)(8) gives joint filer taxpayers who are no longer married or no longer reside in
 the same household the right to request information regarding the IRS’ efforts to collect
 delinquent taxes on their joint return liabilities. The IRS has implemented procedures for
 responding to requests from taxpayers concerning collection activity on their joint tax liabilities.
 We believe these procedures provide its employees sufficient guidance for handling these
 requests in accordance with the law.

 Synopsis
 IRS policies and procedures provide employees with sufficient guidance for handling joint filer
 collection activity information requests. However, we could not determine if the IRS fully
 complied with I.R.C. § 6103(e)(8) requirements when responding to all written information
 requests from joint filers. IRS management information systems do not separately record or
 monitor joint filer requests, and Congress has not explicitly required the IRS to do so.
                Fiscal Year 2007 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



Furthermore, we do not recommend the creation of a separate tracking system. Accordingly, we
made no recommendations in this report.

Response
Because this is a positive report and we made no specific recommendations, comments from the
IRS were not required.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                               2
                        Fiscal Year 2007 Statutory Review of Disclosure of Collection
                                    Activity With Respect to Joint Returns




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 3
          The Internal Revenue Manual Provides Employees Sufficient
          Guidance for Handling Joint Filer Collection Activity
          Information Requests ......................................................................................Page 3
          Compliance With Statutory Requirements for the Disclosure of
          Collection Activity With Respect to Jointly Filed Tax Returns
          Cannot Be Determined....................................................................................Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 5
          Appendix II – Major Contributors to This Report ..........................................Page 6
          Appendix III – Report Distribution List .........................................................Page 7
         Fiscal Year 2007 Statutory Review of Disclosure of Collection
                     Activity With Respect to Joint Returns




                        Abbreviations

I.R.C.            Internal Revenue Code
IRS               Internal Revenue Service
SB/SE             Small Business/Self-Employed
W&I               Wage and Investment
                    Fiscal Year 2007 Statutory Review of Disclosure of Collection
                                Activity With Respect to Joint Returns




                                             Background

The Taxpayer Bill of Rights 21 added Internal Revenue Code Section (I.R.C. §) 6103(e)(8),
which gives joint filer taxpayers who are no longer married or no longer reside in the same
household the right to request information regarding the Internal Revenue Service’s (IRS) efforts
to collect delinquent taxes on their joint return liabilities.
I.R.C. § 6103(e)(8) requires the IRS to provide, in writing, collection activity information to joint
filers if they send in a written request. After passage of the Taxpayer Bill of Rights 2, the IRS
issued procedures that stated, if I.R.C. § 6103(e)(8) is not specifically cited in the request, the
IRS can provide either an oral or written response, based upon I.R.C. § 6103(e)(7).
The IRS Restructuring and Reform Act of 19982
added I.R.C. § 7803(d)(1)(B), which requires the                  The Treasury Inspector General for Tax
Treasury Inspector General for Tax Administration                  Administration is required to annually
to review and certify annually whether the IRS is                   evaluate the IRS’ compliance with
complying with the requirements of                                          I.R.C. § 6103(e)(8).
I.R.C. § 6103(e)(8).
The IRS Restructuring and Reform Act of 1998 also required both the Secretary of the Treasury
and the Joint Committee on Taxation to complete separate studies of the scope and use of
provisions regarding taxpayer confidentiality. The Joint Committee on Taxation issued its study
report in January 2000 and recommended I.R.C. § 6103(e)(8) be amended to allow for oral
information requests in addition to written requests. The Department of the Treasury issued its
study report in October 2000 with a recommendation to eliminate the requirement that joint filer
information requests be in writing.
A study by the IRS concluded there was a low volume of joint filer requests submitted under
I.R.C. § 6103(e)(8). An analysis of 6 former district offices3 over a 6-month period in Calendar
Year 2000 identified only 5 written joint filer requests. As a result of the study, management in
the Small Business/Self-Employed (SB/SE) and Wage and Investment (W&I) Divisions4 decided
not to develop a management control process to track joint filer information requests.




1
  Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections of 26 U.S.C.).
2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  Locations formerly known as district offices are now called Area Offices by the IRS.
4
  The SB/SE and W&I Divisions were created by the reorganization of the IRS. Components of the former
Collection and Customer Service Divisions were made part of these Divisions.
                                                                                                              Page 1
                 Fiscal Year 2007 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns



This review was performed in the IRS National Headquarters in the Office of the Commissioner
and the National Taxpayer Advocate function in Washington, D.C.; the SB/SE Division
Headquarters in New Carrollton, Maryland; and the W&I Division Headquarters in
Atlanta, Georgia, during the period March through May 2007. The audit was conducted in
accordance with Government Auditing Standards. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 2
                 Fiscal Year 2007 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns




                                 Results of Review

The Internal Revenue Manual Provides Employees Sufficient
Guidance for Handling Joint Filer Collection Activity Information
Requests
The provision of the Taxpayer Bill of Rights 2 related to joint filers was enacted out of
Congressional concern about the treatment of separated or divorced taxpayers. Representative
Nancy L. Johnson (R-Connecticut), when introducing the Bill, stated:
       The subcommittee learned of many instances where divorced taxpayers who had
       previously signed a joint tax return during their marriage were treated harshly when the
       IRS later disputed the accuracy of their joint tax return. In many cases the IRS tried to
       collect the entire amount of taxes from the wife, even though the omitted income or
       erroneous deductions which caused the deficiency were attributable solely to her former
       husband. All too often, the woman, being pursued for payment of taxes due, was not
       aware that a tax return filed during the marriage had been audited or that a deficiency
       had been imposed on the return.
To address this concern, the IRS revised its Internal Revenue Manual to include procedures for
responding to taxpayers who file jointly and submit written requests for information on IRS
collection activity. The Internal Revenue Manual instructs employees to disclose whether any
attempts have been made to collect the tax due from either one of the joint filers, the general
nature of any collection activity, and the amount collected to date.
The Internal Revenue Manual procedures allow employees to provide both oral and written
responses to taxpayers. IRS procedures require employees to respond in writing only when
taxpayers specifically cite I.R.C. § 6103(e)(8) as their authority for making written requests for
collection information on joint return liabilities. If the taxpayer’s written request does not
specifically cite I.R.C. § 6103(e)(8), the IRS has directed employees to provide oral responses
when practicable. The IRS believes oral responses provide good customer service to taxpayers
because the taxpayers get immediate answers.




                                                                                             Page 3
                 Fiscal Year 2007 Statutory Review of Disclosure of Collection
                             Activity With Respect to Joint Returns



Compliance With Statutory Requirements for the Disclosure of
Collection Activity With Respect to Jointly Filed Tax Returns Cannot
Be Determined
IRS management information systems do not record or monitor joint filer requests. As such, we
could not determine if the IRS fully complied with I.R.C. § 6103(e)(8) requirements when
responding to written requests from joint filers because of our inability to identify joint filer
requests received nationwide. During this review, management from the SB/SE and W&I
Divisions commented that the IRS’ position has not changed from last year, and the IRS does not
plan to implement a system to identify or track joint filer requests for collection activity. In
addition, there is no statutory or regulatory requirement for the IRS to develop a separate system
that records or monitors these requests.
We do not recommend the creation of a separate tracking system and are making no
recommendations in this report. This is the ninth year in which we have reported our inability to
provide an opinion on the IRS’ compliance with the provisions of I.R.C. § 6103(e)(8).




                                                                                           Page 4
                    Fiscal Year 2007 Statutory Review of Disclosure of Collection
                                Activity With Respect to Joint Returns



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is in compliance with
I.R.C. § 6103(e)(8) related to the disclosure of collection activities to joint filers. To accomplish
our objective, we:
I.      Obtained confirmation from the SB/SE and W&I Divisions that the IRS neither has, nor
        plans to implement, a system or process to identify or track joint filer requests for
        collection information relating to the requirements of I.R.C. § 6103(e)(8).
II.     Interviewed various IRS and Treasury Inspector General for Tax Administration
        personnel responsible for the Taxpayer Advocate Management Information System,1 the
        Information Tracking System,2 and the Performance and Results Information System 3 to
        determine if there is a system or process that tracks taxpayer complaints relating to the
        requirements of I.R.C. § 6103(e)(8).
III.    Obtained information on the actions taken by the IRS in response to I.R.C. § 6103(e)(8)
        to determine the impact on IRS programs.
        A. Reviewed all prior Treasury Inspector General for Tax Administration audit reports
           for the mandatory Joint Filer Reviews to identify any corrective actions taken by the
           IRS.
        B. Reviewed historical and current Internal Revenue Manual sections to identify any
           updates made in response to I.R.C. § 6103(e)(8).




1
  The Taxpayer Advocate Management Information System is an electronic database and case inventory control
system used by Taxpayer Advocate Service employees.
2
  The Information Tracking System is an application used by the IRS to assign, control, and track information and
correspondence. It replaced the Executive Control Management System.
3
  The Performance and Results Information System is a management information system that provides the Treasury
Inspector General for Tax Administration with the ability to manage and account for the thousands of complaints
received and investigations initiated annually.
                                                                                                          Page 5
                Fiscal Year 2007 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Mary V. Baker, Director
Bryce Kisler, Acting Director
Alan Lund, Acting Audit Manager
Craig Pelletier, Lead Auditor
Andrea McDuffie, Auditor




                                                                                    Page 6
                Fiscal Year 2007 Statutory Review of Disclosure of Collection
                            Activity With Respect to Joint Returns



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
National Taxpayer Advocate TA
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Director, Communications and Liaison, National Taxpayer Advocate TA:CL
   Senior Operations Advisor, Wage and Investment Division SE:W:S
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL




                                                                                     Page 7
